               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Postal Vehicle Service
         Transportation Routes –
     Margaret L. Sellers Processing and
            Distribution Center

                       Audit Report




                                              February 2, 2012

Report Number NL-AR-12-001
                                                                      February 2, 2012

                                              Postal Vehicle Service Transportation
                                            Routes – Margaret L. Sellers Processing
                                                            and Distribution Center

                                                        Report Number NL-AR-12-001


IMPACT ON:
Margaret L. Sellers Processing and          HCR transportation fuel use would also
Distribution Center (P&DC). Savings in      help achieve the Postal Service’s fuel
personnel costs, fuel costs, and tort       consumption goals.
claims.
                                            WHAT THE OIG RECOMMENDED:
WHY THE OIG DID THE AUDIT:                  We recommend the vice president,
Our objectives were to determine            Pacific Area Operations, ensure that
whether Postal Vehicle Service (PVS)        Margaret L. Sellers P&DC managers
operations were effective and               follow prescribed fleet management
economical. PVS is network                  procedures for making PVS schedule
transportation that uses U.S. Postal        changes more timely, verify the
Service vehicles and employees to           reallocation of 2,424 workhours within
transport mail to and from facilities       existing PVS schedules, and reallocate
usually within a 50-mile radius of Postal   an additional 5,728 workours within PVS
Service plants.                             schedules to accommodate future FSS
                                            implementation.
WHAT THE OIG FOUND:
Margaret L. Sellers P&DC management         WHAT MANAGEMENT SAID:
had reviewed and adjusted PVS               Management agreed with our findings
schedules due to implementation of the      and recommendations. Management
Flats Sequencing System (FSS) at the        stated that Pacific Area staff will assist
facility. However, P&DC officials could     local management to ensure audit
more effectively manage PVS                 reviews are completed properly.
transportation processes and schedules      Management generally agreed with the
which would reduce driver workhours as      reallocation of excess hours based on
well as associated fuel use and damage      schedule reviews but commented that
claims. This occurred because               the exact amount of hours may change
managers did not always conduct             with network changes.
annual PVS schedule reviews as
                                            AUDITORS’ COMMENTS:
required. Additionally, we verified that
                                            The U.S. Postal Service Office of
management cancelled or consolidated
                                            Inspector General considers
underutilized trips from highway contract
                                            management’s comments responsive to
routes (HCRs) that serve the P&DC. We
                                            the recommendations and corrective
estimate this will save the Postal
                                            actions should resolve the issues
Service an average of about $435,000
                                            identified in the report.
annually, or more than $4.3 million over
10 years. The reduction in PVS and
                                            Link to review the entire report
February 2, 2012

MEMORANDUM FOR:            DREW T. ALIPERTO
                           VICE PRESIDENT, PACIFIC AREA OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Postal Vehicle Service Transportation
                           Routes – Margaret L. Sellers Processing and Distribution
                           Center (Report Number NL-AR-12-001)

This report presents the results of our audit of the Margaret L. Sellers Processing and
Distribution Center’s Postal Vehicle Service transportation routes (Project Number
11XG017NL001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: David E. Williams, Jr.
    Cynthia F. Mallonee
    Pamela S. Grooman
    Corporate Audit and Response Management
Postal Vehicle Service Transportation Routes –                                                                         NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Excess Workhours and Associated Cost Reductions ........................................................ 1

Other Matters — Cost Reductions for HCRs...................................................................... 2

Recommendations .............................................................................................................. 3

Management’s Comments .................................................................................................. 3

Evaluation of Management’s Comments ............................................................................ 4

Appendix A: Additional Information..................................................................................... 5

   Background ...................................................................................................................... 5

   Objectives, Scope, and Methodology ............................................................................. 6

   Prior Audit Coverage ....................................................................................................... 6

Appendix B: Monetary Impacts ........................................................................................... 8

Appendix C: Management’s Comments ........................................................................... 10
Postal Vehicle Service Transportation Routes –                                                           NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




Introduction

This report presents the results of our audit of the Margaret L. Sellers Processing and
Distribution Center’s (P&DC) Postal Vehicle Service (PVS) transportation routes
(Project Number 11XG017NL001). Our objectives were to determine whether selected
PVS vehicle operations were effective and economical. This report is the last in a series
of individual reports responding to a request from a former U.S. Postal Service vice
president, Network Operations, for audit work in this area. See Appendix A for additional
information about this audit.

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pick-up points. Network transportation that uses Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs, in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
district, area, and headquarters transportation officials manage them at the facility level.

Conclusion

Margaret L. Sellers P&DC officials could more effectively manage PVS transportation
processes and schedules which would reduce driver workhours as well as associated
fuel use and damage claims. We also verified that management eliminated or
consolidated underutilized trips from highway contract routes (HCRs) 1 that serve the
Margaret L. Sellers P&DC. By making these adjustments, we estimate the Postal
Service could save more than $4.3 million over 10 years, or an average of about
$435,000 per year. The reduction in PVS and HCR transportation fuel use would also
help the Postal Service achieve its fuel consumption goals.

Excess Workhours and Associated Cost Reductions

We found that during the past year management conducted some PVS schedule
reviews and made schedule adjustments due to increased transportation needs for
implementation of the Flats Sequencing System (FSS) at the facility. Management
made adjustments to existing PVS schedules rather than create new schedules to
accommodate FSS trips in this dynamic and fluid environment.

However, we found that, although PVS schedules overall were generally effective and
economical at the Margaret L. Sellers P&DC, some PVS schedules included



1
  Although our focus was on PVS transportation, we also reviewed HCR transportation as part of overall facility
transportation needs. Savings for underutilized HCR routes the Postal Service initiated are included in this report.
                                                           1
Postal Vehicle Service Transportation Routes –                                                      NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center


underutilized trips that management could have consolidated. This occurred because
managers did not always conduct annual PVS schedule reviews as required. 2

We concluded that Margaret L. Sellers P&DC management should validate the
reallocation of 2,424 workhours 3 that took place during our fieldwork and reallocate
5,728 4 excess workhours from existing PVS schedules to accommodate FSS
implementation. This will reduce workhours as well as related fuel costs and damage
claims, thereby saving the Postal Service an average of $358,736 per year, or over
$3.5 million, as reflected in Table 1.

            Table 1. PVS Potential Savings – Funds Put to Better Use
                      (Personnel, Fuel, and Damage Claims)
                 Fiscal Year
                               FY 2013       10-Year Total
                  (FY) 2012
 Cost Category                 (Annual)      (FYs 2012 to     Percentage
                     Total
                                  Total         2021)
                 (Phased In)
Personnel           $256,002   $343,401          $2,889,232         80.5%
Fuel                   50,749      50,256           485,881         13.5
Damage Claims          22,555      22,248           212,243          5.9
                                         5                 6
Total               $329,306 $415,906           $3,587,357         100.0%

Throughout our audit, we coordinated proposed schedule realignments with local
transportation managers. The managers reviewed each proposal with their own
assessment of operational requirements and we discussed any differences.

Other Matters — Cost Reductions for HCRs

During our audit, Margaret L. Sellers P&DC management cancelled 14 HCR trips
without negatively affecting on-time service because trip mail volume was low and mail
could be consolidated on other trips. As a result, the Postal Service will save $770,693
over the term of existing contracts as detailed in Table 2. We are not making a
recommendation in the area since we already verified the Postal Service removed the
trips.




2
  Handbook PO-701, Fleet Management, Chapter 23, March 1991, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
3
  Management stated that these hours were re-allocated subsequent to our fieldwork and will validate the change in
response to the report,
4
  Management has already proposed schedule changes that would use the 5,728 excess PVS workhours identified in
our review to accommodate new transportation needs during further implementation of the FSS anticipated in early
2012.
5
  Slight difference in total due to rounding.
6
  Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions. Slight difference in total due to rounding.


                                                        2
Postal Vehicle Service Transportation Routes –                                                      NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




                   Table 2. HCR Potential Savings for Cancelled Trips
                      Funds Put to Better Use (Contract and Fuel)
        Recommended          Contract     Number of
                                                       Estimated Savings 7
           Reduction         Number         Trips
                              92011           2                    $253,692
                              92012           6                     366,695
      Initiated by
                              92034           2                       1,447
      Management
                              92038           2                      36,525
                              920L2           2                     112,334
      Total                                  14                    $770,693


Recommendations

We recommend the vice president, Pacific Area Operations:

1. Ensure that Margaret L. Sellers Processing and Distribution Center managers follow
   prescribed fleet management procedures for making Postal Vehicle Service
   schedule changes more timely, including conducting annual schedule and vehicle
   utilization reviews.

2. Verify the reallocation of 2,424 workhours within existing Postal Vehicle Service
   schedules and reallocate the additional 5,728 workours as proposed to
   accommodate future transportation needs based on further Flats Sequencing
   System implementation.


Management’s Comments

Management agreed with our finding and recommendations regarding PVS schedule
reviews. Management stated that Pacific Area staff will assist local management to
ensure audit reviews are completed properly, with implementation beginning on
January 30, 2012, and to be completed by November 1, 2012. Management generally
agreed with our recommendation regarding the reallocation of excess hours based on
schedule reviews, but commented that the exact amount of hours stated may change
due to network changes. The reallocation of hours is expected to be completed by
November 1, 2012. Management also commented that the savings for the HCR route
adjustments had already reduced their Line 3P base and these savings will not occur
every year over the contract life. See Appendix C for management’s comments in their
entirety.


7
 Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers.


                                                        3
Postal Vehicle Service Transportation Routes –                               NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
management’s comment on the impact of network changes on the reallocation of hours,
we agree that future changes may impact our projected workhour reductions. However,
our estimates are based on the existing operating environment and are our best
estimates at this time. In addition, our HCR route adjustment estimates represent future
savings based on the remaining value of the contract, and we do not expect the
operating budget to be reduced by this amount each year.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                     4
Postal Vehicle Service Transportation Routes –                                                NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




                              Appendix A: Additional Information

Background

Postal Service transportation includes both nationwide network transportation between
cities and major facilities, as well as delivery transportation between local post offices
and neighborhood delivery and pick-up points. Network transportation that uses Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
district, area, and headquarters transportation officials manage them at the facility level.

PVS is capital- and personnel-intensive. Nationwide, PVS capital assets include
approximately 2,154 cargo vans, 1,841 tractors, and 3,892 trailers. Employees service
and repair these vehicles at 309 Postal Service vehicle maintenance facilities (VMFs),
VMF auxiliaries, 8 and local commercial garages nationwide. PVS currently involves
about 8,500 employees, including 7,068 drivers, 603 administrative support personnel,
and 851 managers. The American Postal Workers Union represents PVS drivers and
support personnel.

PVS operations typically include:

     Transportation to and from major facilities or local post offices.

     Transportation to and from major commercial business mailers.

     Yard operations, defined as the movement of trailers and equipment in or around a
      facility yard.




                               Source: OIG

PVS vehicle assigned to Margaret L. Sellers P&DC arriving at the Midway Processing and Distribution Facility
                     with mail for the Automated Package Processing System (APPS).


8
    Extension of a VMF.


                                                     5
Postal Vehicle Service Transportation Routes –                                 NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




Objectives, Scope, and Methodology

Our objectives were to determine whether selected PVS vehicle operations were
effective and economical. We conducted this performance audit from May through
December 2011 in accordance with generally accepted government auditing standards
and included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We discussed our observations and conclusions with management on
November 8, 2011 and included their comments where appropriate.

Using Postal Service computer-generated data and other records, we analyzed
135 Margaret L. Sellers P&DC driver schedules, identified 177,187 annual workhours
associated with those schedules, and evaluated individual trips and trip load volume.
We conducted the analysis to determine whether management could reduce workhours
and labor costs. We also identified 530 trips operated under 17 highway contracts that
had at least one service point within the district. As part of our review, we analyzed
driver assignments and determined whether drivers made duplicate or unproductive
trips. We also reviewed fuel-reduction initiatives for Postal Service-owned vehicles as
contained in the FY 2011 Strategic Sustainability Performance Plan and determined
whether our recommendations impacted the initiatives.

We noted several weaknesses in the computer-generated data that limited our work.
For example, some computer records had missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles, such as
using discounted cash flows, to our workhour and cost-reduction estimates.

Prior Audit Coverage

At the request of the vice president, Network Operations, the OIG has worked with the
Postal Service to reduce PVS costs. To determine a national estimate of the number of
hours PVS could eliminate, we visited facilities derived from a statistical sample. As
indicated in the following chart, since February 2009, we have issued five audit reports
that identified labor and other potential savings of $47.1 million. We found inefficiencies
in PVS schedules because management did not conduct schedule and vehicle
utilization reviews as required. Management agreed with all of our findings and
recommendations in those reports. This report used the same methodology and had
comparable findings. For all audits, we recommended management follow prescribed
fleet management procedures for making PVS schedules effective, including conducting
schedule and vehicle utilization reviews.



                                                     6
      Postal Vehicle Service Transportation Routes –                                           NL-AR-12-001
       Margaret L. Sellers Processing and Distribution Center




                                                                Monetary
                                                  Final          Impact
                               Report            Report            (In
    Report Title               Number             Date          millions)      Report Recommendations
                                                                            We recommended that management
Postal Vehicle Service                                                      eliminate or reassess a total of 22,809
Transportation Routes –                                                     workhours. We also recommended
                             NL-AR-09-001        2/13/2009        $9.3
Minneapolis Processing                                                      management enforce load restraint
and Distribution Center                                                     policies and emphasize the use of seat
                                                                            belts by PVS motor vehicle operators.
                                                                            We recommended that management
                                                                            eliminate or reassess a total of 45,688
                                                                            workhours. We also recommended
Postal Vehicle Service
                                                                            management enforce load restraint
Transportation Routes –
                                                                            policies for PVS trips and provide
Cardiss Collins              NL-AR-10-002       12/28/2009        $18.3
                                                                            oversight of load restraint processes and
Processing and
                                                                            ensure that management issues a
Distribution Center
                                                                            memorandum to drivers requiring their
                                                                            compliance with policies regarding the
                                                                            use of chock blocks.
                                                                            We recommended that management
Postal Vehicle Service                                                      eliminate or reassess a total of 10,153
Transportation Routes –                                                     workhours. We recommended that
Southern Maryland            NL-AR-10-006        7/14/2010        $4.8      management reassess the eight HCR
Processing and                                                              trips identified in our audit. We also
Distribution Center                                                         recommended management enforce load
                                                                            restraint and chock block usage policies.
                                                                            We recommended that management
                                                                            eliminate a total of 14,177 workhours.
Postal Vehicle Service
                                                                            We recommended that management
Transportation Routes –
                                                                            verify the elimination of two HCR trips
Suburban Maryland            NL-AR-11-001        1/13/2011        $6.5
                                                                            initiated during our audit and eliminate
Processing and
                                                                            11 HCR trips identified in our audit.
Distribution Center
                                                                            We also recommended management
                                                                            enforce load restraint usage policies.
                                                                            We recommended that management
                                                                            eliminate or reassess a total of 19,062
Postal Vehicle Service
                                                                            workhours. We recommended that
Transportation Routes –
                             NL-AR-11-004        7/25/2011        $8.2      management eliminate 24 HCR trips
Baltimore Processing
                                                                            identified in our audit. We also
and Distribution Center
                                                                            recommended management enforce load
                                                                            restraint usage policies.




                                                           7
   Postal Vehicle Service Transportation Routes –                                                        NL-AR-12-001
    Margaret L. Sellers Processing and Distribution Center


                                       Appendix B: Monetary Impacts


                    Finding                                   Impact Category                         Amount
   The Margaret L. Sellers P&DC could                    Funds Put to Better Use 9                    $3,587,357
   improve PVS processes and
   reallocate and remove 8,153
   unnecessary workhours from existing
   PVS schedules, saving about
   $3.6 million in costs associated with
   these schedules over 10 years.
   The Margaret L. Sellers P&DC could                    Funds Put to Better Use                           770,693
   save $770,693 over the existing
   Pacific Area's highway contracts by
   canceling or consolidating 14 trips.
          Total                                                                                     $4,358,049 10

   Excess Workhours and Associated Cost Reductions Findings: We employed a 10-year
   cash flow methodology, discounted to present value, by applying the following factors
   published by Postal Service Headquarters Finance.

                               FY 2012 11                FY 2013               10-Year Total
                                 Total                   (Annual)              (FYs 2012 to
  Cost Category               (Phased In)                  Total                   2021)                  Percentage
Personnel                          $256,002                 $343,401               $2.889,232                    80.5%
Fuel                                 50,749                    50,256                 485,881                    13.5
Damage Claims                        22,555                    22,248                 212,243                     5.9
      Total                       $329,306                 $415,906 12           $3,587,357 13                100.0%14

                                    Rates by Type 15                                        Factor
                   Discount Rate/Cost of Borrowing                                            3.0%
                   Labor Escalation Rate                                                      1.6%
                   Fuel Cost Escalation Rate                                                  2.0%
                   Tort Claim Cost Escalation Rate                                            1.6%




   9
     Funds that could be used more efficiently by implementing recommended actions.
   10
      Slight difference in total due to rounding.
   11
      The FY 2012 figure is conservative to allow for phase-in of workhour reductions during the year.
   12
      Slight difference in total due to rounding.
   13
      Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
   recommended actions. Slight difference in total due to rounding.
   14
      Slight difference in total due to rounding.
   15
      Rates published June 16, 2011.


                                                            8
    Postal Vehicle Service Transportation Routes –                                                       NL-AR-12-001
     Margaret L. Sellers Processing and Distribution Center




                             HCR Schedule Changes and Cost Reductions

    Cost Reductions for HCRs Finding: To calculate the months remaining in HCR
    contracts, we used actual months as of a specified date. If the months remaining were
    less than 1 year, we used the number of months in the renewal contract.

  Recommended                    Contract                Number of              Annual Miles               Estimated
    Reduction                    Number                    Trips                 Reduced                   Savings 16
                                  92011                      2                         49,673                  $253,692
                                  92012                      6                         72,825                   366,695
Initiated by
                                  92034                      2                            197                     1,447
Management
                                  92038                      2                         10,913                    36,525
                                  920L2                      2                          9,203                   112,334
         Total                                              14                      142,812 17                 $770,693




    16
       Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
    Service and their suppliers.
    17
       Slight difference in total due to rounding.


                                                             9
Postal Vehicle Service Transportation Routes –                  NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center


                            Appendix C: Management’s Comments




                                                    10
Postal Vehicle Service Transportation Routes –            NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




                                                    11
Postal Vehicle Service Transportation Routes –            NL-AR-12-001
 Margaret L. Sellers Processing and Distribution Center




                                                    12
